Memorandum from the Office of the Inspector General



February 28, 2006

Paul R. LaPointe, WT 3A-K

FINAL INSPECTION REPORT – INSPECTION 2005-524I – REVIEW OF TVA’S VISA
PURCHASING CARD USAGE


Attached is the subject final report for your review and final action. Your written
comments which addressed your management decision and actions planned or taken,
have been included in the report. Please notify us when final action is complete.

For your information, we are forwarding all final audit and inspection reports to two
Congressional committees in accordance with a requirement which applies to other
Inspectors General as well. In addition, we are considering whether this report and/or a
summary should be posted on the OIG Web page. Please advise us if you believe this
report contains any sensitive information which should be withheld, (including the
response to the draft report). If we have not heard from you within 20 calendar days of
the date of this memorandum, we will assume you have no objection to release of this
report in its entirety.

If you have any questions or wish to discuss our findings, please contact Rick C. Underwood,
Senior Auditor, at (423) 751-3108 or Gregory C. Jaynes, Deputy Assistant Inspector General,
Inspections, at (423) 751-7821. We appreciate the courtesy and cooperation received from
your staff during the inspection.



Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

RCU:SDB
Attachment
cc (Attachment):
      William H. Bonham, WT 3A-K
      Robin L. Presnell Evans, WT 3A-K
      Tom D. Kilgore, WT 7B-K
      John E. Long, Jr., WT 7B-K
      Richard W. Moore, ET 4C-K
      Ellen Robinson, WT 7C-K
      OIG File No. 2005-524I
                    Tennessee Valley Authority
                    Office of the Inspector General


Inspection Report



REVIEW OF TVA'S
VISA PURCHASING
CARD USAGE




Senior Auditor                             2005-524I
Rick C. Underwood                   February 28, 2006
Office of the Inspector General                                                    Inspection Report




TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................. i

BACKGROUND ................................................................................. 1
   CARDHOLDER RESPONSIBILITIES ................................................ 2

   APPROVING OFFICIAL RESPONSIBILITIES................................... 3

OBJECTIVE, SCOPE, AND METHODOLOGY .......................... 3

FINDINGS ........................................................................................... 4
   PROGRAM CHANGES...................................................................... 4

   DELEGATION OF APPROVAL.......................................................... 5

   DISALLOWED AND QUESTIONALBE PURCHASING
   CARD CHARGES .............................................................................. 6

   CARDS ISSUED WITHOUT REQUIRED DOCUMENTATION ........... 8

   TVA POLICIES, BUSINESS PRACTICES, AND TRAINING
   MODULES DO NOT CLEARLY AND CONSISTENTLY
   DEFINE WHEN PURCHASING CARDS MAY BE USED FOR
   HOSPITALITY EXPENSES................................................................ 9

RECOMMENDATIONS .................................................................... 9


APPENDICES

A. TOP TEN VENDORS VIA PURCHASING CARD JUNE 2002 THRU
   JUNE 2005

B. TOP TEN PURCHASING CARD TRANSACTIONS BY COST
   CLASS

C. MEMORANDUM DATED FEBRUARY 15, 2006, FROM PAUL R.
   LAPOINTE TO BEN R. WAGNER




Inspection 2005-524I
Office of the Inspector General                                                Inspection Report



EXECUTIVE SUMMARY
Tennessee Valley Authority (TVA) began its Visa Purchasing Card
Program for small-dollar purchases, up to and including $5,000, in 1994.
The program “is provided to TVA organizations for purchases of small-
dollar materials and services when it is determined to be the best
procurement vehicle. . . .” TVA Procurement provides program
management, oversight, and administration of the Purchasing Card
Program and its automated system, Integrated Credit Card Solution
(ICCS).i Procurement’s Visa Purchasing Card procedure prescribes the
types of purchases which are allowed and disallowed and key program
control activities, including cardholder and approving official
responsibilities.

Since the program’s inception, the Office of the Inspector General has
conducted several reviews of the Purchasing Card Program. Our
current review covered the period June 1, 2002, through June 30, 2005.
Purchases during this period were made by 1,826 cardholders and
totaled about $250.3 million, including $80.2 million during calendar year
2004.

In summary, we found Procurement has made program changes to
address control weaknesses identified in our previous report; however,
we still noted travel and travel-related expenses charged to the
purchasing cards. We also found (1) weaknesses in supervisory review
and approval of purchasing card statements; (2) disallowed and
questionable purchasing card transactions; (3) purchasing cards issued
without required documentation; and (4) TVA policies and on-line
training modules do not clearly and consistently define acceptable
purchasing card use for hospitality expenses. Procurement has stated,
that subsequent to our review period, actions were taken to address
weaknesses in supervisory review and approval of purchasing card
statements.

Our recommendations are contained at the end of this report. In
summary, we recommend the Senior Vice President (SVP),
Procurement, (1) reemphasize the importance of procedural compliance
and require regular cardholder and approving official training; (2) require
compliance with the purchasing card issuance requirements; and (3)
ensure policy and training clearly define acceptable purchasing card use
for hospitality.


The SVP, Procurement, provided comments on a draft of this report.
Procurement agreed with our recommendations and we concur with

i
  ICCS is a web-based system which allows online review and approval of procurement card
  charges and redistribution of charges to the proper short codes and cost classifications.
Inspection 2005-524I                                                                        Page i
Office of the Inspector General                               Inspection Report



TVA management’s planned actions regarding (1) reemphasizing the
importance of cardholder and approving official Visa Purchasing Card
procedure compliance; (2) requiring regular cardholder and approving
official training; and (3) specifying the types of hospitality expenditures
allowed on the Visa Purchasing Card.

While Procurement did not agree with our recommendations regarding
(1) requiring proper completion and approval of purchasing card
requests on form TVA 17470, (2) requiring the purchasing card request
be approved by personnel at a level higher than the approving official,
and (3) prohibiting approving officials from approving a cardholder’s
statement/charges with his/her own expenditures, we note that
continuing these practices increases the risks of abuse, misuse, and
fraud pertaining to Visa Purchasing Card use and Procurement should
implement additional monitoring controls where appropriate. (See
Appendix C for a complete response.)




Inspection 2005-524I                                                    Page ii
Office of the Inspector General                                               Inspection Report



BACKGROUND
A Practical Guide for Reviewing Government Purchase Card Programs
from the Inspection and Evaluation Committee of the President’s
Council on Integrity and Efficiency (PCIE) states that “Purchase Card
Programs are high-risk because they allow the same individual to order,
pay for, and receive goods and services. This offers the potential for
fraud and abusive and improper transactions if not carefully monitored.”
Common control weaknesses identified by the PCIE include
(1) inadequate review of purchases by approving officials; (2) lack of
documentation/inadequate documentation; (3) inadequate agency card
directive; (4) inadequate and lack of training for cardholders and
approving officials; (5) credit card sharing; and (6) improper
transactions.

Tennessee Valley Authority (TVA) began its Visa Purchasing Card
Program for small-dollar purchases, up to and including $5,000, in 1994.
The program “is provided to TVA organizations for purchases of small-
dollar materials and services when it is determined to be the best
procurement vehicle . . .” TVA Procurement provides program
management, oversight, and administration of the Purchasing Card
Program and its automated system, Integrated Credit Card Solution
(ICCS).1 Procurement’s specific responsibilities include requesting
payments be made to the program supplier (First Tennessee Bank),
developing TVA guidelines for management and usage of the
purchasing cards, and providing training regarding the Purchasing Card
Program and ICCS.

Since the program’s inception, the Office of the Inspector General (OIG)
has conducted several reviews of the Purchasing Card Program. TVA’s
use of procurement cards has increased since our last review period
ending December 31, 2001, as shown in Table 1.




1
    ICCS is a web-based system which allows online review and approval of procurement card
    charges and redistribution of charges to the proper short codes and cost classifications.

Inspection 2005-524I                                                                     Page 1
Office of the Inspector General                                               Inspection Report




    Purchases
                                  Purchasing Card Transaction Amounts
    in Millions
       88

       86
       84
       82

       80
       78
       76

       74
       72
       70
                  Calendar Year     FY 2002        FY 2003       FY 2004   FY 2005 through
                      2001                                                  June 30, 2005
                                          Time Frames Analyzed



Specifically:

•     Our previous report dated December 20, 2002, covered the 18-month
      period ending December 31, 2001. We found that 1,451 cardholders
      made purchases totaling about $103 million, including $71 million
      during calendar year 2001. This was an average of about
      $5.72 million in procurement card expenditures per month.

•     Our current review covered the period June 1, 2002, through
      June 30, 2005. Purchases during this period were made by 1,826
      cardholders and totaled about $250.3 million, including $80.2 million
      during calendar year 2004.2 This was an average of about
      $6.76 million in procurement card expenditures per month during our
      review period.

Procurement’s Visa Purchasing Card procedure prescribes (1) the types
of purchases which are allowed and disallowed; (2) cardholder and
approving official responsibilities; and (3) other key control activities.
Appendices A and B provide listings by cost of the top ten vendors and
cost classifications for our review period.

CARDHOLDER RESPONSIBILITIES
Cardholder responsibilities include (1) attaching all receipts to the
statements; (2) using ICCS to (a) transfer charges to the proper short
codes and cost classifications and (b) perform electronic statement


2
    According to Procurement, the 1,826 cardholders making purchases during our review period
    included both active and terminated cardholders. As of December 5, 2005, there are 1,353
    active cardholders, which is about the same as during the previous OIG review.

Inspection 2005-524I                                                                         Page 2
Office of the Inspector General                                                  Inspection Report



verification;3 and (3) providing statement and supporting documentation
to approving officials for review and ICCS online approval.

APPROVING OFFICIAL RESPONSIBILITIES
Procurement’s on-line “Purchasing Card Training 2005” states that
“The approving official on-line monthly review and approval of charges is
the key internal review and control used to ensure proper usage of the
Purchasing Card.” In addition, approving officials’ responsibilities
include:

•     Ensuring charges are immediately discontinued by collecting and
      destroying terminated employees’ cards.
•     Notifying Procurement when a cardholder is terminated so that the
      card may be canceled.
•     Notifying Procurement when an approving official changes.
•     Proactively ensuring that all cardholder statements and supporting
      documentation are received and reviewed.
•     Providing ICCS electronic management review and approval of all
      expenditures listed on the cardholder statement by the end of each
      month.


OBJECTIVES, SCOPE, AND METHODOLOGY
Our objectives were to determine whether purchasing card usage was
for a valid business purpose as defined by TVA policies and assess the
operating effectiveness of key control activities. Our review included all
Purchasing Card transactions with transaction dates between June 1,
2002, and June 30, 2005. During this period, 1,826 cardholders made
purchases totaling about $250.3 million. To achieve our objectives, we:

•     Reviewed TVA’s (1) Visa Purchasing Card procedure; (2) Business
      Practice 3 – Credit Cards; (3) Business Practice 7 – Hospitality;
      (4) Visa Purchasing Card and hospitality on-line training modules;
      and (5) Business Practice 19 – External Training – Employee
      Development.
•     Interviewed Procurement personnel to identify controls in place over
      purchasing card usage, any problems they were aware of in the
      program, and any blanket purchase orders in place.



3
    Electronic statement verification indicates that charges are correct or have been properly
    disputed.

Inspection 2005-524I                                                                        Page 3
Office of the Inspector General                                               Inspection Report



•     Conducted an analytical review of all procurement card transactions
      included in our review scope to gain a perspective on the types and
      magnitude of charges. We then (1) judgmentally selected
      86 purchasing card transactions totaling $1,577,672 and (2) randomly
      selected another 99 transactions4 totaling $41,929 to:

      − Assess the adequacy of supporting documentation.
      − Determine if the purchases were for materials/services allowed
        under TVA policies.
      − Determine if the corresponding credit card statement was properly
        approved.

For the 99 randomly selected transactions, we also determined whether
form TVA 17470, Request for TVA Purchasing Card, was completed and
approved, as required, before issuance of the respective Visa Purchasing
Card.

•     Assessed the timeliness of credit card transaction approval for the
      period of our review using Audit Control Language software.

Our scope did not include testing to confirm the accuracy of the data
extracted from TVA’s computerized databases. This inspection was
conducted in accordance with the “Quality Standards for Inspections.”


FINDINGS
We found Procurement has made program changes to address several
control weaknesses identified in our previous report; however, we still
noted travel and travel-related expenses charged to the purchasing
cards. We also found (1) weaknesses in supervisory review and
approval; (2) disallowed and questionable Visa Purchasing Card
transactions; (3) purchasing cards issued without required
documentation; and (4) TVA policies and on-line training do not clearly
and consistently define acceptable use of purchasing cards for
hospitality.

PROGRAM CHANGES

In our previous review, we noted that Procurement made several
program control improvements as a result of its implementation of
ICCS. However, we also identified control weaknesses that occurred
generally due to noncompliance with TVA’s Visa Purchasing Card
4
    We used attribute sampling methodology to identify the sample size of 99, and the sample
    selections were made randomly. The sample size was based on a 3 percent maximum
    tolerable error rate and a 5 percent risk of incorrect acceptance.

Inspection 2005-524I                                                                    Page 4
Office of the Inspector General                               Inspection Report



procedure. The program control weaknesses and noncompliance
issues were related to (1) transactions that exceed transaction limits;
(2) the sharing of cards; (3) record retention; and (4) travel and travel-
related expenses.

We found that since the completion of our previous review:

•   Controls have been instituted to ensure Procurement approval of
    transactions exceeding approved transaction limits before ICCS
    processing.

•   Procurement card procedures have been modified to allow the
    sharing of purchasing cards while still holding cardholders
    responsible for any purchases made with their assigned cards.

•   Record retention appears to have improved based on the results of
    our testing of available supporting documentation for 185 purchasing
    card transactions.

As noted elsewhere in this report, we also found Visa Purchasing Cards
were still used to pay for travel and travel-related expenses which is
prohibited by the Visa Purchasing Card procedure.

DELEGATION OF APPROVAL
Procurement has identified approving official review and approval of
charges as the key internal review and control used to ensure proper
usage of the Purchasing Card. Our review of this key control activity
found that review and approval responsibilities are sometimes
delegated.

TVA’s Visa Purchasing Card procedure requires each approving official
to “Provide electronic management review and approval of all
expenditures listed on the cardholder statement by the end of each
month.” Hard copy signatures on the statements are optional. We
found that the respective approving official delegated approval authority
for 18 of the 185 transactions we reviewed. Further review of the ICCS
data files noted that over 16.5 percent of the 56,955 card statements
closed during the period under review were approved by someone other
than the approving official.



According to Procurement, subsequent to our review period, delegation
of approval authority was prohibited. Specifically:



Inspection 2005-524I                                                    Page 5
Office of the Inspector General                                             Inspection Report



•     Cardholders and approving officials have been instructed that
      approval authority cannot be delegated.
•     The Visa Purchasing Card procedure was modified to prohibit
      delegation of approval authority.
•     ICCS is being modified to prohibit anyone other than the approving
      official to approve charges.

DISALLOWED AND QUESTIONABLE PURCHASING
CARD CHARGES
We reviewed supporting documentation for 185 transactions we
selected for review to determine whether the purchases were for goods
and/or services allowed by the Visa Purchasing Card procedure. We
also reviewed other documentation provided by the cardholders. As a
result of our review, we categorized transactions into three groups:

•     Allowed;
•     Disallowed – 13 transactions for purchases specifically disallowed
      under the policy; and
•     Questionable – Transactions for items that appeared to be for goods
      and/or services disallowed under the policy or where controls over
      the items purchased were not adequate.

Disallowed Purchases per TVA Visa Purchasing Card Procedure
We found 12 of the 185 purchasing card transactions we selected for
review were “Disallowed” per the TVA Visa Purchasing Card procedure.
Our review of additional cardholder documentation also identified
another disallowed transaction. The 12 disallowed transactions from
our sample were as follows:

•     A transaction that was basically a $300 cash advance5 which is not
      allowed by the Visa Purchasing Card procedure. Our review of the
      $300 charge to J&J Food Mart identified nine related $300 charges.
      According to the approving official:
       − A contractor who would not accept the TVA Visa Purchasing
          Card was used to provide services at a TVA substation (i.e., the
          purchase and spreading of seed, mulch, and sod).
       − The cardholder processed ten $300 charges at J&J Food Mart,
         and J&J Food Mart paid the contractor $3,000 (i.e., $300 was the
         transaction limit for the store).


5
    While J&J Food Mart processed the transactions as purchases of goods and services, we
    deem these transactions to essentially be cash advances. According to Procurement,
    transactions processed as cash advances are rejected by the bank.

Inspection 2005-524I                                                                  Page 6
Office of the Inspector General                             Inspection Report



An invoice from the contractor was provided as supporting
documentation; however, no record of payment by J&J Food Mart to the
contractor was provided. Also, form TVA 26130, Conditions and
Certifications Applicable to $5,000 and Under Contracts for Labor of
Services – Contractor’s Agreement, was not executed and signed by
the contractor prior to work as required by the procedure. We were told
that local people are used to do this kind of work all the time and the
TVA cardholders were unaware of the requirement to complete form
TVA 26130.

•   Four payments for external training that occurred after the Visa
    Purchasing Card procedure was revised to specifically disallow such
    expenditures on the Visa Purchasing Card.
•   Two payments for hotel rooms, two payments for airfare, and two
    payments for rental cars when the Visa Purchasing Card procedure
    lists travel and related expenses as disallowed items.
•   The purchase of personal Mississippi State University football
    season tickets. We verified that the TVA Visa Purchasing Card
    transaction was repaid by the cardholder.

In our review of additional documentation provided by cardholders, we
identified a transaction where TVA Executive Management paid for a
hospitality dinner with contractors using a subordinate’s purchasing
card, rather than their own Visa Gold credit cards. Business Practice 7,
Hospitality, states “as a general rule, at restaurants and similar events,
the highest ranking TVA official in attendance should charge the
expenditure to his/her Visa Gold credit card.”

Other Questionable Charges
In addition to the transactions included in our review that were
specifically disallowed under the Visa Purchasing Card procedure, we
found questionable purchasing card charges as follows:

•   Gift Cards – Our review of four $500 transactions identified $2,000
    in gift card purchases from Outback, Logan’s Roadhouse, Brick
    Oven Grille, and Cracker Barrel. Per the individual that requested
    the cardholder make the purchases, no documentation exists as to
    who received the cards, when they were given out, or why they were
    given out. We were told that the gift cards were usually given to
    distributor personnel but at times were given as TVA employee
    recognition awards. Proper controls are not in place to determine if
    the gift cards were used for valid business purposes. If they were
    given to distributor personnel or used as recognition awards, their
    use would have been a valid business purpose; however, they could
    also have been used for invalid purposes.



Inspection 2005-524I                                                  Page 7
Office of the Inspector General                             Inspection Report



•   Travel-Related Expenses – Our review of travel-related expenses
    identified several instances where the Visa Purchasing Card was
    used to pay for transactions associated with offsite events and/or
    Board meetings. These expenses included room charges, room
    service, telephone charges, valet parking, and individual meals. We
    also found an approving official was approving purchasing card
    statements which included his/her own hotel bills.

    The approving official of the cards reviewed stated that the
    purchasing card was used to avoid state sales tax charges. The
    approving official further stated Visa Purchasing Cards are exempt
    from state sales tax whereas travel or gold cards are not.

    TVA Business Practice 3 states that “Purchases cannot be related to
    official travel (i.e., lodging).” While the Purchasing Card procedure
    states the Visa Purchasing Card can be used for hospitality
    associated with organizational offsites, it further states travel and
    travel-related expenses are disallowed. Accordingly, we believe
    individual expenses associated with room charges, room service,
    telephone charges, parking, and individual meals are not allowed.

CARDS ISSUED WITHOUT REQUIRED DOCUMENTATION
Completion and processing of form TVA 17470, Request for Visa
Purchasing Card, is/was the required mechanism for obtaining a Visa
Purchasing Card. The Visa Purchasing Card procedure specifically
stated “This form is used to obtain a Visa Purchasing Card for
authorized procurement representatives.” The procedure also directs
readers to the TVA intranet where specific instructions are provided
pertaining to (1) completion and submission of form TVA 17470 and
(2) certification of card receipt and Visa Purchasing Card procedure
understanding. Per the purchasing card request instructions, the form
must be completed with the appropriate level of approval. The TVA
intranet site provides the levels of approval required.

We found 36 of the 99 transactions we randomly selected applied to
purchasing cards where the card was not requested using form
TVA 17470. Specifically, some TVA Visa Purchasing Cards were
requested and issued based on e-mails (several from individuals not
from the required level of authority to approve issuance) and
memorandums. Authorizing purchasing cards based on e-mails, rather
than requiring a signed form, increases the risk of a fraudulent request.

We also found that for 14 of the transactions we reviewed, the individual
approving the request for the purchasing card was also identified as the
future approving official for the card. This could represent a conflict of
interest and/or lack of separation of duties. For example, while

Inspection 2005-524I                                                  Page 8
Office of the Inspector General                                               Inspection Report



reviewing supporting documentation for transactions we selected for
review, we noted procurement card transactions where the individual
approving issuance of the purchasing card also electronically approved
the cardholder’s statement. The approved cardholder statements
included some travel expenses for the approving official.

TVA POLICIES, BUSINESS PRACTICES, AND TRAINING
MODULES DO NOT CLEARLY AND CONSISTENTLY
DEFINE WHEN PURCHASING CARDS MAY BE USED
FOR HOSPITALITY EXPENSES
Available guidance does not clearly define when the Visa Purchasing
Card may be used to pay for hospitality. Specifically, Business
Practice 3 and 7 are silent on the use of the purchasing card for
hospitality but reference the Visa Gold Card as the preferred hospitality
payment mechanism. The Visa Purchasing Card procedure and on-line
training module6 allow use of the Visa Purchasing Card for hospitality in
limited circumstances. The explanations cited for limited circumstances
in the procedure and module reference “organizational offsites or
recognition, etc.” and “large organizational events or recognition,”
respectively. TVA’s Hospitality training module also states that the
purchasing card can be used to pay for hospitality in limited
circumstances but provides no further explanation, while the Purchasing
Card module states it can only be used for large organizational events
or recognition when a gold card is not available.




6
    TVA employees and contractors have access to on-line training modules pertaining to
    hospitality and the purchasing card program. The training modules are designed to review
    guidelines and roles and responsibilities.

Inspection 2005-524I                                                                    Page 9
Office of the Inspector General                              Inspection Report



RECOMMENDATIONS
The Senior Vice President (SVP), Procurement, should:

1. Reemphasize the importance of Visa Purchasing Card procedure
   compliance including both cardholder and approving official
   responsibilities. Procurement should also require regular training for
   all cardholders and approving officials to reinforce their
   responsibilities and the proper usage of the purchasing card.

2. Require proper completion and approval of purchasing card
   requests on form TVA 17470 as required by the Visa Purchasing
   Card procedure. Also, Procurement should (1) require the
   purchasing card request be approved by personnel at a level higher
   than the approving official and (2) prohibit approving officials from
   approving a cardholder’s statement/charges with his/her own
   expenditures.

3. In cooperation with the TVA Controller, ensure that the Visa
   Purchasing Card procedure, Business Practices, and on-line training
   modules clearly and consistently define requirements and types of
   hospitality expenditures allowable on Visa Purchasing Cards.

Management’s Response – The SVP, Procurement, provided
comments on a draft of this report. The SVP, Procurement, agreed to
implement our recommendations regarding:

•   Reemphasizing the importance of Visa Purchasing Card procedure
    compliance for both cardholders and approving officials.

•   Requiring regular training for cardholders and approving officials.

•   Clearly and consistently defining requirements and types of
    hospitality expenditures allowable on Visa Purchasing Cards.

In response to our recommendations, management plans to (1) send
periodic e-mails to cardholders and approving officials listing their
responsibilities, (2) require annual training for cardholders and
approving officials, and (3) revise Visa Purchasing Card procedures to
specifically list the types of hospitality expenditures allowed on the Visa
Purchasing Card.

The SVP, Procurement, disagreed with our recommendations regarding
(1) requiring proper completion and approval of purchasing card
requests on form TVA 17470 as required by the Visa Purchasing Card
procedure, (2) requiring the purchasing card request be approved by
personnel at a level higher than the approving official, and (3) prohibiting

Inspection 2005-524I                                                 Page 10
Office of the Inspector General                              Inspection Report



approving officials from approving a cardholder’s statement/charges with
his/her own expenditures.

The SVP, Procurement, stated:

•   “The Purchasing Card procedure states TVA form 17470 is used to
    obtain a Visa Purchasing Card but does not state the form is
    mandatory.” The Purchasing Card Procedure will be revised to accept
    e-mails.

•   “We do not feel it is necessary for the [purchasing card request]
    approval to be different from the approving officials based on the level
    of management making the request.”

•   “During any given month, the cardholder more than likely will purchase
    items such as office supplies which are for the Approving Official.”

(The complete text of the SVP’s, Procurement, comments is provided in
Appendix C.)

Auditor’s Comments – We concur with TVA management’s planned
actions to (1) reemphasize the importance of cardholder and approving
official Visa Purchasing Card procedure compliance, (2) require regular
cardholder and approving official training, and (3) specify the types of
hospitality expenditures allowed on the Visa Purchasing Card.

While Procurement did not agree with our recommendations regarding
(1) requiring proper completion and approval of purchasing card
requests on form TVA 17470, (2) requiring the purchasing card request
be approved by personnel at a level higher than the approving official,
and (3) prohibiting approving officials from approving a cardholder’s
statement/charges with his/her own expenditures, we note that
continuing these practices increases the risks of abuse, misuse, and
fraud pertaining to Visa Purchasing Card use and Procurement should
implement additional monitoring controls, where appropriate.




Inspection 2005-524I                                                 Page 11
             Page 1 of 1
APPENDIX A




                                                                                                                                LS
                                                                                                                            RI A
                                                                                                                         TE
                                                                                                                   MA                  CS
                                                                                                              AN                   SV
                                                                                                           LC                   SS
                                                                                                        VU                  LE
                                                                                                                         RE
                           Top Ten Vendors Via Purchasing Card




                                                                                                                    WI
                                                                                                               EL
                                                                                                            XT
                                                                                                        NE
                                                                                                                 IN C
                                June 2002 thru June 2005




                                                                                                              O                  NY
                                                                                                           SC                PA
                                                                                                        LE              CO
                                                                                                                           M
                                                                                                                  AL                 I NC
                                                                                                              EN                  LY
                                                                                                           ST                 PP
                                                                                                        FA                SU
                                                                                                                     I ED
                                                                                                                SI F
                                                                                                             ER                LS
                                                                                                        DI V               TA
                                                                                                                        EN
                                                                                                                  TR
                                                                                                               EL
                                                                                                          NB
                                                                                                        SU
                                                                                                                 ON
                                                                                                          R IZ
                                                                                                        VE
                                                                                                                    ES
                                                                                                                  AS
                                                                                                             CG
                                                                                                        BO
                                                                                                                       SB
                                                                                                                L   ES
                                                                                                             AP            ER
                                                                                                        ST               LK
                                                                                                                      WA
                                                                                                                E   R-
                                                                                                             RT
                                                                                                        PO
                                                                 Millions

                                                                            25


                                                                                 20


                                                                                      15


                                                                                           10


                                                                                                5


                                                                                                    0
                                                                                                         APPENDIX B
                                                                                                          Page 1 of 1



                                  Top Ten Purchasing Card
                                 Transactions by Cost Class



                                     2%   1%   1% 1%1% 0%
                               2%
                         3%
               5%




                                                                                  84%




26A Materials and supplies purchases                        26C Office supplies and forms purchases
23N Cellular Telephone Service (lease and usage charge      25Z Other contractual services (non-architectural/engi
12F Benefits in transfer of official station (Travel R      26Z Other supplies and materials purchases
25W Hospitality/entertainment/safety/employee recognit      31Z Other equipment purchases
23B Rental of equipment                                     31J ADP equipment purchases
APPENDIX C
 Page 1 of 2
APPENDIX C
 Page 2 of 2
